U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



USDA Implementation of the Agricultural
     Risk Protection Act of 2000




                  Report No.
                  50099-12-KC
                  September 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                    Washington D.C. 20250


DATE:        September 30, 2003

REPLY TO
ATTN OF:     50099-12-KC

SUBJECT:     USDA Implementation of the Agricultural Risk Protection Act of 2000

TO:          Ross J. Davidson, Jr.
             Administrator
             Risk Management Agency

             James R. Little
             Administrator
             Farm Service Agency

ATTN:        Michael Hand
             Deputy Administrator for Compliance
             Risk Management Agency

             T. Mike McCann
             Director, Operations and Review Analysis Staff
             Farm Service Agency


This report presents the results of our review of the U. S. Department of Agriculture’s
implementation of the Agricultural Risk Protection Act of 2000. Written responses
provided by the Risk Management Agency and the Farm Service Agency to the official
draft report are included as exhibit B with excerpts and the Office of Inspector General’s
(OIG) position incorporated into the Findings and Recommendations section of the
report.

Based on the information contained in the response, we are unable to accept
management decisions at this time. Management decisions can be considered when
the agencies provide the additional information outlined in the OIG Position sections of
the report.

Please furnish a reply within 60 days describing corrective actions taken or planned and
the timeframes for implementation of those recommendations where management
decisions have not been reached. Please note that Departmental Regulation 1720-1
requires a management decision to be reached on all findings and recommendations
within a maximum of 6 months from report issuance.                 Final Action on the
recommendations that have reached management decision should be completed within
1 year to preclude being listed in the Department’s annual performance and
accountability report.
Ross J. Davidson, Jr. et al                                                             2


We appreciate the courtesies and cooperation extended to our staff during the review.


/s/ Marlane T. Evans for

RICHARD D. LONG
Assistant Inspector General
  for Audit
                      EXECUTIVE SUMMARY
                    USDA IMPLEMENTATION OF THE
              AGRICULTURAL RISK PROTECTION ACT OF 2000

                           REPORT NO. 50099-12-KC



                                     This review was performed to assess the
     RESULTS IN BRIEF                status of actions taken to implement
                                     significant portions of the Agricultural Risk
                                     Protection Act of 2000 (ARPA). The overall
         purpose of the ARPA is to strengthen the safety net for agricultural
         producers through more affordable risk management tools. We concluded
         that the Risk Management Agency (RMA) and Farm Service Agency
         (FSA) initiated reasonable actions to implement 19 of 30 significant ARPA
         provisions that we identified. For 10 of the remaining 11 provisions, we
         concluded that the agencies’ actions were not far enough along to
         adequately assess their progress. One specific provision of ARPA
         requires the U.S. Department of Agriculture (USDA) Secretary, through
         RMA and FSA, to reconcile all relevant information received from
         producers who obtained crop insurance coverage and reconcile this
         information on at least an annual basis beginning with the 2001 crop year.

           However, Departmental efforts on data reconciliation of information
           received from producers who carried crop insurance on 2001 crops were
           not timely or effective. A number of factors, including differences in
           agency program definitions, weaknesses in planning and coordinating the
           referral of errors among the agencies, and RMA’s reliance on the
           reinsured companies, contributed to this condition.          As a result,
           effectiveness of the reconciliation as a tool to enhance program integrity
           has been compromised and the reconciliation process, as it is presently
           being conducted, may not be in compliance with legislative requirements.
           In November 2002, we discussed our concerns with RMA officials that
           their sampling approach, which included only resolving a small number of
           the identified discrepancies for the 2001 crop year, may not meet ARPA’s
           intent and requirements for reconciling relevant information. In our view,
           once RMA and FSA decided on the relevant data to be reconciled for
           2001, the agencies were obliged by statute to substantially resolve all
           discrepancies identified. We also questioned RMA’s reliance on the
           reinsured companies to research and confirm the apparent discrepancies,
           rather than using its own staff. RMA officials agreed to seek written legal


USDA/OIG-A/50099-12-KC                                                         Page i
           opinions from the Office of the General Counsel (OGC) as to whether
           (1) reinsured companies could be required to participate in the data
           reconciliation process and to clarify any associated role and
           responsibilities and (2) the limited sampling plan approach used to
           address and resolve discrepancies identified during the 2001
           reconciliation would meet ARPA requirements.

           The difficulties, including the inefficient use of RMA and FSA resources to
           meet this continuing legal requirement, will continue to exist without a
           common information system. The Farm Security and Rural Investment
           Act of 2002 authorized the Secretary to use between $5 million and $8
           million to develop a comprehensive information management system.
           This legislation defined the primary system objectives as eliminating the
           duplicate collection of information and lowering the overall cost to USDA
           for information collection. To that end, the legislation provided for the
           development of a common information system by combining, reconciling,
           redefining, and reformatting existing RMA and FSA data. The RMA
           Administrator also indicated in November 2002, that the agency held a
           meeting with FSA and the Office of the Chief Information Officer (OCIO)
           and began discussing plans to comply with the legislation but did not
           provide timeframes or a plan of implementation at that time.

                                    We recommended that RMA and FSA, in
 KEY RECOMMENDATIONS                consultation with the Under Secretary, Farm
                                    and Foreign Agricultural Services (FFAS),
                                    establish an executive level joint Departmental
        agency task force to develop plans for reengineering the Department’s
        data reporting for each producer, landowner, and policyholder under a
        single integrated common comprehensive information collection system.
        In addition, we recommended that the agencies develop strategies to
        address each of the conditions cited herein. We also recommended that
        RMA obtain written legal opinions as to whether (1) reinsured companies
        can be required to participate in the data reconciliation process and to
        clarify their role and responsibilities in resolving identified discrepancies
        and (2) the limited sampling plan approach being used to address and
        resolve the discrepancies identified during the 2001 reconciliation meets
        the requirements of ARPA.            On November 14, 2002, the RMA
        Administrator agreed to obtain the opinions from OGC but no formal OGC
        opinions on the two issues have been provided by RMA as of the date of
        this report.

                                       In its written response to the draft audit report,
    AGENCY RESPONSE                    RMA generally concurred with the four
                                       recommendations and FSA concurred with
                                       two recommendations pertaining to their



USDA/OIG-A/50099-12-KC                                                           Page ii
           respective agencies. The two complete written responses are shown in
           exhibit B. Specifically, the Deputy Under Secretary, FFAS, and the RMA
           and FSA Administrators established a cross-functional team to implement
           a common information system that will eliminate the need for producers to
           report the same information to FSA and to reinsured companies; create
           efficiencies for producers, the agencies, and reinsured companies; and
           reduce the need for data reconciliation. The common information system
           (CIS) will enable the sharing of customer land use related information by
           utilizing USDA’s e-Gov initiative and the Office of Management and
           Budget’s (OMB) Geospatial One-Stop Initiative. The system is based on
           the common land unit (CLU), which identifies all farm fields, range land,
           and pasture land in the United States. USDA customers report and
           receive services related to land location, such as insurance, commodity
           payments, loans, conservation plans, and program contracts.

           Also, RMA is in the process of analyzing the conditions cited and the 10
           factors outlined in the draft report and plans to meet with FSA to
           determine the actions necessary to address each one. FSA indicated it
           has completed all activities related to the 2001 data reconciliation and that
           records have been transferred to RMA. Also, FSA indicated that no other
           2002 data activities will begin by FSA until RMA has determined, with
           OGC guidance, what actions they can take. Once that is determined, FSA
           will work with RMA to determine the 2002 data reconciliation process.
           Also, RMA plans to include a discussion of the data reconciliation process
           in its next annual report to Congress and continues to work with OGC on
           obtaining the legal opinions.

                                      The RMA and FSA responses to the draft
        OIG POSITION                  report concurred with the recommendations
                                      but did not include specific dates and details
                                      that would allow us to accept management
          decision. The information needed to reach management decision has
          been incorporated into the OIG Position sections of the report.




USDA/OIG-A/50099-12-KC                                                          Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF..................................................................................................... i
   KEY RECOMMENDATIONS ....................................................................................... ii
   AGENCY RESPONSE ................................................................................................ ii
   OIG POSITION ........................................................................................................... iii
TABLE OF CONTENTS................................................................................................. iv
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES .............................................................................................................. 2
   SCOPE ........................................................................................................................ 3
   METHODOLOGY ........................................................................................................ 3
FINDINGS AND RECOMMENDATIONS ........................................................................ 4
   CHAPTER 1 ................................................................................................................ 4
   IMPROVEMENT NEEDED IN DATA RECONCILIATION PROCESS ........................ 4
   FINDING NO. 1............................................................................................................ 4
   RECOMMENDATION NO. 1 ..................................................................................... 11
   RECOMMENDATION NO. 2 ..................................................................................... 12
   RECOMMENDATION NO. 3 ..................................................................................... 13
   RECOMMENDATION NO. 4 ..................................................................................... 14
EXHIBIT A – LETTER TO PRODUCERS REQUESTING VERIFICATION OF DATA . 15
EXHIBIT B – RMA AND FSA RESPONSES TO THE DRAFT REPORT ..................... 16
ABBREVIATIONS......................................................................................................... 20




USDA/OIG-A/50099-12-KC                                                                                                 Page iv
                           INTRODUCTION

                                       ARPA, Public Law 106-224, was enacted on
       BACKGROUND                      June 20, 2000. It was designed to strengthen
                                       the safety net for agricultural producers by
                                       providing greater access to more affordable
         risk management tools and improved protection from production and
         income loss. One of the most important objectives of ARPA was to
         improve the overall integrity of the program. ARPA provided total funding
         of about $8.2 billion for the 2001 through 2005 fiscal years to accomplish
         these objectives.

          Specifically, Title I of ARPA consisted of six subtitles: A. Crop Insurance
          Coverage; B. Improving Program Integrity; C. Research and Pilot
          Programs; D. Administration; E. Miscellaneous; and F. Effective Dates
          and Implementation. Major program changes in the subtitles included
          providing farmers with access to better coverage at more affordable
          prices, enhancing protection from the effects of multi-year losses on
          producer yields, tightening compliance, stimulating the research and
          development of new insurance products, and targeting underserved areas
          for program expansion.

          Some highlights of ARPA included section 101 which authorized
          increased subsidy levels as a means of making crop insurance more
          affordable. Also, section 105 of ARPA minimized the impact of multi-year
          losses on yields by permitting the substitution of replacement yields equal
          to 60 percent of the applicable transitional yields, where appropriate.

          In addition, section 121 of ARPA provided for improved program
          compliance and integrity through the use of data mining techniques and
          an annual reconciliation of RMA and FSA data to identify and resolve
          differences. The reconciliation became effective with the 2001 crop year.
          Also, ARPA provides, in part, that “the Secretary shall develop and
          implement a coordinated plan for the Corporation and the Farm Service
          Agency to reconcile all relevant information received by the Corporation or
          the Farm Service Agency from a producer who obtains crop insurance
          coverage under this chapter. Beginning with the 2001 crop year, the
          Secretary shall require that the Corporation and the Farm Service Agency
          reconcile such producer-derived information on at least an annual basis in
          order to identify and address any discrepancies (7 United States
          Code 1515).’’


USDA/OIG-A/50099-12-KC                                                       Page 1
          Section 121 of ARPA also required the Secretary to submit an annual
          report to Congress describing the activities carried out under that section.
          This included an outline of the actions taken to eliminate identified fraud,
          waste, and abuse. The initial report, dated April 2002, was submitted to
          Congress in the fall of 2002 but did not acknowledge difficulties
          encountered conducting the reconciliation process. Also, section 121
          required the Secretary to upgrade RMA’s information management
          systems and ensure that any new hardware and software was compatible
          with that used by other USDA agencies. Subsequently, the Farm Security
          and Rural Investment Act of 2002 (FSRIA) (section 10706) authorized the
          Secretary to use between $5 million and $8 million to develop a
          comprehensive information management system.

          Section 131 authorized reimbursement for the research and development
          costs associated with new and existing insurance products submitted for
          approval by private industry while section 132 authorized the introduction
          of pilot programs on new crops and livestock. The use of various risk
          management education tools and expansion of crop insurance
          participation in underserved areas was addressed in section 133. Also,
          section 142 provided for the use of expert reviewers to assess the
          soundness of private product submissions.

          Section 148 authorized RMA to renegotiate the Standard Reinsurance
          Agreement (SRA) once during the 2001 through 2005 reinsurance years.
          SRA is a cooperative financial assistance agreement between RMA and
          the reinsured companies to deliver eligible crop insurance under the Act.
          The current SRA was amended by RMA in 2000 for ARPA and is in effect
          through the 2004 crop year.

                                     The primary objectives of the review were to
        OBJECTIVES                   identify significant changes resulting from the
                                     passage of ARPA, to assess the progress of
                                     implementation activities of the significant
         areas identified, and assess management controls on selected areas;
         primarily those controls over the implementation of the data reconciliation
         provisions.




USDA/OIG-A/50099-12-KC                                                        Page 2
                                    The audit was performed at the RMA and FSA
            SCOPE                   Headquarters       offices     located     in
                                    Washington, D.C.,     the   RMA      Regional
                                    Compliance office located in Kansas City,
           Missouri, and the Nebraska FSA State office (STO) located in Lincoln,
           Nebraska.

           The audit coverage was primarily limited to the ARPA implementation
           activities occurring    during   the     12-month   period  ended
           September 30, 2002. However, older activities were reviewed to the
           extent deemed necessary.

           Once we identified the significant changes resulting from the passage of
           ARPA, we assessed their implementation status. We then concluded that
           the data reconciliation process was a key area of the legislation for which
           RMA, in conjunction with FSA, had developed a work plan and had
           recently begun the process of reconciling their respective producer’s data.
           Therefore, we concentrated on reviewing the data reconciliation efforts
           due to significant amounts of FSA and RMA resources being devoted to
           the endeavor and the importance of developing a successful methodology
           for reconciling and resolving producer crop year data in future years.

           The audit fieldwork was performed between April 2002 and
           November 2002. We conducted the audit in accordance with Government
           Auditing Standards.

                                      To accomplish the audit objectives, we
       METHODOLOGY                    interviewed RMA, FSA, and OGC officials.
                                      We reviewed ARPA legislation, work plans
                                      developed by task teams, associated program
         documents, and interviewed a staff member from the House Agriculture
         Committee. Also, we examined the methodologies used by the agencies
         to conduct the reconciliation of FSA and RMA records and analyzed the
         results obtained. In addition, we identified the changes made to SRA
         based on ARPA and determined the reasons for the SRA changes. Also,
         we reviewed the RMA and FSA jointly issued handbook to obtain the
         specific procedure that pertained to the data reconciliation effort. At the
         Nebraska FSA STO, we tested application of the State and county
         office (CO) reconciliation procedures and controls through interviews with
         agency officials and a review of relevant supporting program records.




USDA/OIG-A/50099-12-KC                                                        Page 3
           FINDINGS AND RECOMMENDATIONS


 CHAPTER 1        IMPROVEMENT NEEDED IN DATA RECONCILIATION
                  PROCESS


                                         Agency efforts to complete the required data
        FINDING NO. 1                    reconciliation for 2001 were not timely and/or
                                         effective.   A number of factors, including
                                         differences in agency program definitions and
           weaknesses in planning and coordinating the referral of errors among the
           agencies and reinsured companies, contributed to this condition. Also,
           plans for accomplishing the 2001 crop reconciliation discrepancy
           resolution activities were in a fluid state and had not been finalized,
           although the next crop year was nearing completion. As a result, USDA
           has little assurance that agency efforts expended on the 2001 crop
           reconciliation will be in substantial compliance with ARPA and achieve the
           legislative intent of Congress. RMA’s decisions to limit the number of
           identified discrepancies for research and correction meant that staff
           resources were used to identify discrepancies for which resolution may not
           be attempted and the bona fide errors contained in such discrepancies not
           being corrected.

           Furthermore, as RMA and FSA work constructively together to alleviate
           these barriers to effectively implement the required data reconciliation,
           particularly differences in agency program definitions, they will also
           facilitate their efforts in developing a common information system that was
           recently mandated by Congress. FSRIA authorized funding to the
           Secretary to develop such a comprehensive information management
           system. Specifically, the legislation provided for development of a
           common information system by combining, reconciling, redefining, and
           reformatting existing RMA and FSA data.

           Section 121 of ARPA required the Secretary, USDA, to develop and
           implement a coordinated plan for RMA and FSA to reconcile all relevant
           information received from producers who carried crop insurance. This
           included requiring the agencies to reconcile such producer-derived
           information on at least an annual basis in order to identify and address
           any discrepancies beginning with the 2001 crop year.           The data
           reconciliation effort was intended to improve program compliance and


USDA/OIG-A/50099-12-KC                                                         Page 4
          integrity. This included expansion of the data elements to be reconciled,
          as both agencies moved toward a common computing environment.

          In October 2000, a joint agency reconciliation team, comprised of RMA
          and FSA personnel, completed a work plan that identified short- and
          long-term project objectives, a project approach, project strategies,
          reporting procedures, and recommendations for future projects to
          streamline data reporting and collection. For 2001, the plan defined
          relevant information to be reconciled and provided for comparing producer
          identification numbers, crop acreages, crop shares, and quantity of the
          commodity produced for 19 price support crops. The plan also provided
          that RMA would initially provide FSA with a file containing the cited crop
          insurance data for each insured producer. FSA personnel were then to
          compare the crop insurance data with the associated information
          contained in the FSA database. The plan further provided that differences
          would be summarized in a Data Reconciliation Report electronically
          provided to FSA CO’s for analysis at the local level. This included
          acreage differences exceeding the greater of 1 acre or 5 percent of the
          reported RMA acres. CO responsibilities included reviewing the Data
          Reconciliation Report to identify the nature of the discrepancies shown for
          each listed producer. This included sending a pro forma letter to each
          affected producer requesting that it annotate on the letter to show which
          data (RMA’s or FSA’s) was correct. (See example in exhibit A.) FSA
          personnel were also responsible for making corrections in cases where
          the producers reported that the RMA data was correct. Discrepancies that
          could not be resolved or did not represent an allowable program difference
          were subject to referral back to RMA for followup at the reinsured
          company level.

          Procedures for implementing the data reconciliation effort were included in
          Amendment 3 to FSA Handbook 4-RM, FCIC Program Integrity, dated
          October 4, 2001. The handbook included associated reinsured company
          responsibilities for researching and correcting data discrepancies;
          however, Amendment 8 to the handbook, dated May 25, 2002,
          subsequently modified the section pertaining to the reconciliation
          responsibilities. That amendment showed, in part, that plans for finalizing
          the 2001 crop reconciliation would be forthcoming.

          To initiate the data reconciliation process, RMA provided FSA with a file
          containing 2001 crop insurance policy data that existed in its database as
          of September 2001. That file contained about 1.4 million records. FSA
          subsequently compared the producer identification numbers, crop
          acreages, and crop shares contained in the RMA provided file with those
          shown in its database. A report containing data elements that did not


USDA/OIG-A/50099-12-KC                                                       Page 5
          match was provided to the affected FSA CO’s for analyses and followup
          on December 3, 2001. That file contained about 480,000 records or about
          34 percent of the 1.4 million records provided to FSA. FSA personnel
          subsequently sent pro forma letters showing the unmatched data
          element(s) obtained from both agencies to each identified producer. The
          letters contained spaces for producers to circle and initial which agency’s
          data was correct and to provide the correct producer identification number,
          in applicable cases. Based on the responses received, FSA personnel
          were to take action to resolve discrepancies resulting from errors in FSA
          records. For example, this included cases where the producer indicated
          that the RMA data was correct. FSA CO personnel also coded the file for
          each discrepancy to show whether or not it needed to be referred back to
          RMA for followup at the reinsured company level. STO personnel were
          also required to concur with the need for referral back to RMA by coding
          each discrepancy with a “Y” or “N” as an additional management control.

          As of June 2002, the file of discrepancies returned by FSA to RMA for
          followup by the RMA and/or reinsured companies contained about
          240,000 of the approximately 480,000 unmatched records originally
          identified by FSA. During June and July 2002, RMA ran comparisons
          using discrepancies in the file to identify other alternatives (e.g., increasing
          the administrative variance allowed) for reducing the number of
          discrepancies to be referred to the reinsured companies for research and
          correction.

          On July 29, 2002, RMA personnel advised us that they planned to use a
          random sampling plan to select discrepancies for referral to reinsured
          companies. RMA prepared a document that detailed eliminating about
          230,000 of the discrepancies from the universe from which the sample
          would be selected. To that end, RMA selected a random sample of 160 of
          about 10,000 discrepancies consisting of acreage differences exceeding
          10 percent with calculated indemnity differences greater than $1,000 for
          analysis at the reinsured company level. RMA provided the sample cases
          to the reinsured companies in August 2002 and directed them to research
          and correct the insurance records in applicable cases. However, RMA
          had not established any formal plans for finalizing the 2001 reconciliation
          as of the date of this report, including what was to be done to resolve the
          remaining 230,000 discrepancies referred by FSA.

          Our reviews of supporting program records and interviews with agency
          officials disclosed that the following factors have adversely impacted the
          2001 crop year reconciliation process:




USDA/OIG-A/50099-12-KC                                                            Page 6
             1. Agency differences in program definitions precluded comparing
                data at a lower detail level. For example, farms carried on FSA
                records are made up of one or more unique tracts (parcels of land)
                containing one or more fields. Producers report their crop acreages
                to FSA on the basis of farms, tracts, and fields. However, crops are
                insured on a unit basis. Crop insurance units may include the land
                in one or more tracts or portions thereof. Also, producers are
                permitted to obtain insurance on crops in which they do not have an
                insurable interest with consent. For example, a tenant can insure
                the landowner’s share of a crop. Similarly, one spouse might report
                a 100 percent interest for crop insurance purposes, whereas each
                spouse might report a 50 percent interest for FSA purposes.
                However, the absence of corrective action to address this issue will
                result in the inefficient use of staff resources to identify, research,
                and resolve the same discrepancies year after year.

             2. RMA included two questionable procedures in its data reconciliation
                process: (1) RMA requested reinsured companies to research and
                confirm the apparent discrepancies implementing the required
                reconciliation of RMA and FSA data, and (2) RMA developed a
                sampling plan approach as an alternative to researching and
                resolving each of the discrepancies referred by FSA. Even though
                its preliminary discussions with OGC had raised questions on
                whether the proposed procedures met the requirements of ARPA
                and were allowed under SRA, RMA proceeded with implementing
                the new procedures since it believed that such actions were within
                its program authority. During our discussions with OGC staff, they
                restated earlier concerns that the procedures may be in conflict with
                ARPA and/or SRA.

                RMA requested reinsured companies to participate in the
                reconciliation process by researching and confirming only a portion
                of the apparent discrepancies resulting from the reconciliation
                process required by ARPA. RMA believed such changes in
                procedures were within its program authority. Furthermore, RMA
                believed that it was not cost effective to review and correct all
                identified discrepancies. Prior to referring the discrepancies to the
                reinsured companies, RMA would have omitted those
                discrepancies resulting from program errors and differences. RMA
                also believed it was in compliance with SRA because it would be
                assigning reinsured companies to follow up only on discrepancies
                directly attributable to the reinsured companies or policyholders.
                Although the reinsured company’s participation represented a
                critical component in resolving those discrepancies referred by


USDA/OIG-A/50099-12-KC                                                         Page 7
                FSA, RMA only informally broached the issue with OGC; no final
                determinations had been sought from OGC. As a result, RMA did
                not have reasonable assurance that its plans for resolving the
                discrepancies referred by FSA would meet the requirements of the
                statute and intent of Congress.

                In summary, based on our discussions with OGC, we believe that
                RMA’s sampling approach and its intent to resolve only a small
                number of the identified discrepancies for the 2001 crop year may
                not meet ARPA’s intent and requirements for reconciling any
                discrepancies. In our view, once RMA and FSA decided on the
                relevant data to be reconciled for 2001, the agencies were obliged
                by statute to substantially resolve all discrepancies identified. This
                issue was discussed with RMA officials on November 14, 2002,
                where we recommended that RMA request OGC to provide written
                legal opinions as to whether (1) reinsured companies could be
                required to participate in the data reconciliation process and to
                clarify any associated role and responsibilities and (2) the limited
                sampling plan approach used to address and resolve discrepancies
                identified during the 2001 reconciliation would meet ARPA
                requirements. At this discussion, the RMA Administrator agreed to
                obtain the opinions from OGC but no formal OGC opinions on the
                two issues have been provided by RMA as of the date of this
                report.

             3. RMA did not include data on active crop policies without any
                reported acres (blank acreage numbers) in the file that was
                transmitted to FSA. This prevented the potential identification of
                insured producers who did not report any planted acres for one or
                more insured crops to the insurance provider to avoid premium
                charges but did report planted crop acres to FSA to receive other
                types of program benefits, such as loan deficiency payments.
                Program records showed that 670,178 crop policies for 2001 did
                not earn a premium as of September 30, 2002. Producers who
                underreport their crop plantings undermine the integrity of the crop
                insurance program by reducing the amount of premium income that
                would otherwise be available to the companies to cover losses and,
                thereby, improve the actuarial soundness of the program.

             4. Subsequent changes to the RMA database after the master file was
                provided to FSA to initiate the comparison could have resulted in
                FSA followup on acreage differences that were eliminated as a
                result of loss adjustments. For example, the acres reported for
                crop insurance purposes are subject to change as a result of


USDA/OIG-A/50099-12-KC                                                        Page 8
                factors, such as loss adjustments. However, the RMA file provided
                to FSA for comparison purposes generally represented the planted
                crop acreages reported by the insured producers (i.e., prior to the
                normal loss adjustment season). Accordingly, any acreage errors
                noted at the time of loss adjustment were generally not reflected in
                the data provided to FSA. Although a later file transmission date
                could have mitigated the impact of this condition, it would have
                further delayed overall completion of the 2001 reconciliation
                process.

             5. Content of the pro forma letter sent to producers did not recognize
                the potential for errors in both agencies’ records. This was due to
                the fact that the letter required producers to choose whether the
                FSA or RMA data was correct. Except for producer identification
                numbers, there was no request to record the correct information if
                the provided data for both agencies were wrong.

             6. Inconsistent documentation was provided to RMA on producer
                identification number discrepancies that were resolved by FSA but
                may have needed further analysis. For example, the text portion of
                the record provided to RMA was not always documented to show
                the associated crop acreage and share data in cases where the
                identification number differences were caused by a transposition
                error in recording the number by RMA or FSA.

             7. The underlying cause(s) for identified discrepancies were not
                determined at the local level. The implementation plans called for
                the FSA CO’s to resolve as many differences as possible through
                responses on the pro forma letters returned by producers.
                However, any remaining differences, except for allowable program
                variances, were to be referred to RMA for followup by the
                applicable reinsured companies. This would necessitate at least
                two contacts with the producers in cases where the discrepancies
                could not be resolved by FSA. Also, the reconciliation efforts
                appeared to focus on designating which agency’s records were
                correct rather than identification of the underlying reason(s) for the
                discrepancies.

             8. Controls were not in place to ensure that future changes to 2001
                crop year data would result in corrections to the records in both
                agencies, where appropriate.

             9. Impact of crop insurance policy provisions that preclude certain
                changes to crop insurance data after the insurance period ends


USDA/OIG-A/50099-12-KC                                                        Page 9
                was not considered (e.g., integrity of actual production history yield
                data in cases where yields are based on incorrect acreage data).

            10. Insufficient monitoring by RMA of preliminary FSA review results
                barred identifying and addressing unanticipated problems
                (e.g., malting barley provisions) before they became major
                obstacles in the reconciliation process. The survey disclosed that
                RMA monitoring efforts were primarily limited to software tests at
                four counties in South Dakota and Texas and phone calls to a
                sample of FSA CO’s to identify any concerns they had with respect
                to the data reconciliation process.

            11. Untimely completion of the 2001 crop data reconciliation effort
                (resolution of referred discrepancies for the 2001 crop year was not
                initiated until August 2002) did not allow the affected producers to
                accurately report their 2002 crop plantings. Accordingly, the
                absence of timely action to resolve identified acreage and share
                discrepancies could result in repeated identification in subsequent
                years and inefficient use of staff and resources.

          RMA did submit its required report on ARPA implementation to Congress
          in the fall of 2002, but did not acknowledge the difficulties encountered
          conducting the reconciliation process or issues needing clarification by
          OGC.

          As noted, section 121 of ARPA required the upgrading of RMA’s
          information management systems. RMA is now working to upgrade its
          existing compliance tracking system. Subsequently, FSRIA (section
          10706) authorized the Secretary to use between $5 million and $8 million
          to develop a comprehensive information management system. The
          legislation defined the primary system objectives as eliminating the
          duplicate collection of information and lowering the overall cost to USDA
          for information collection. To that end, the legislation provided for the
          development of a common information system by combining, reconciling,
          redefining, and reformatting existing RMA and FSA data. The RMA
          Administrator indicated on November 14, 2002, that his agency did hold a
          meeting with FSA and the Office of the Chief Information Officer (OCIO) to
          begin discussing plans to comply with this legislation but did not provide
          timeframes or a plan of implementation. In our view, this common
          comprehensive information system needs to be a single integrated
          reporting system with common program definitions to simplify the process
          and programs for agricultural producers.




USDA/OIG-A/50099-12-KC                                                       Page 10
            Without significant changes in planning, executing, referring data
            discrepancies, and correcting information systems, the ability of either
            agency to enhance the existing data reconciliation process will be
            extremely limited. As noted above, significant problems were experienced
            in reconciling only a few basic data elements, such as producer
            identification numbers this year. Incomplete actions to analyze, research,
            and correct identified discrepancies will also obstruct and result in
            duplicating reconciliation efforts in future years. We also concluded that
            these problems will impede efforts to expand the existing process to
            include additional and more complex data elements, such as production in
            future crop years.

            To the FSA and RMA Administrators:

                                   Establish    an     executive    level    joint
  RECOMMENDATION NO. 1             Departmental     agency     task    force    in
                                   consultation with the Under Secretary, FFAS,
                                   and     immediately    develop     plans    for
        reengineering the Department’s data reporting for each producer,
        landowner, and policyholder under a single integrated common
        comprehensive information collection system that is client friendly and
        provides all necessary information to enable the agencies and reinsured
        companies to administer their respective programs.             (Refer to
        factor no. 1.)

            Agency Response

            In its written response to the draft audit report, dated September 10, 2003,
            RMA concurred with the recommendation. The FSA response dated
            September 30, 2003, showed that it concurred with the RMA response.
            RMA stated that the Deputy Under Secretary, FFAS, and RMA and FSA
            Administrators established a cross functional team to implement a
            common information system that will eliminate the need of producers
            reporting the same information to FSA and to reinsured companies, create
            efficiencies for producers, the agencies, and reinsured companies, and
            reduce the need for data reconciliation.

            CIS will enable the sharing of customer land use related information by
            utilizing USDA’s e-Gov initiative and OMB’s Geospatial One-Stop
            Initiative. The system is based on CLU, which identifies all farm fields,
            range land, and pasture land in the United States. USDA customers
            report and receive services related to land location, such as insurance,
            commodity payments, loans, conservation plans, and program contracts.
            The team will create a data key and design an environment that will allow


USDA/OIG-A/50099-12-KC                                                         Page 11
           the exchange or sharing of information based on CLU between RMA, the
           reinsured companies, and FSA.

           CLU also provides the Geographic Information System (GIS) component
           to USDA information. The use of GIS technology enables the creation of
           location-based decision support system that integrates agronomic data
           and will allow USDA business to be mapped by location on a nationwide
           basis.

           CIS will begin as a pilot in 2004 in selected areas where CLU has been
           certified by FSA. The pilot area will expand in following years until CLU’s
           in the entire country have been certified. The final implementation
           procedures, policies, and systems will be modified based on experiences
           learned during the pilot.

           The team is identifying the types of information to be shared and program
           differences which will have to be addressed. It has identified the data
           reporting elements for the 2004 pilot, which were included in the 2004
           Manual 13 and are working on developing the reporting procedures. The
           team represents the different functional areas of the reinsured companies,
           RMA, and FSA, and is in coordination with USDA’s OCIO.
           Representatives from the Natural Resources Conservation Service, Rural
           Development, National Agricultural Statistics Service, and Cooperative
           State Research, Education, and Extension Service, and Homeland
           Security will also be consulted and be involved.

           OIG Position

           Based on the information contained in the two responses, we cannot
           reach management decision for this recommendation. We agree with the
           actions taken to date and planned. To reach management decision, RMA
           will need to provide detailed information on its final implementation
           procedures, policies, and systems that will be modified based on the
           experiences learned from the pilot. Also, we will need to be provided a
           timeframe for completing the contemplated actions.

                                Develop strategies for addressing each of the
  RECOMMENDATION NO. 2          conditions cited (refer to factors nos. 1 and
                                3 through 11).       This includes promptly
                                completing the 2001 crop year reconciliation
        and any associated corrective actions for all identified discrepancies.
        Require RMA and FSA to take immediate action to address the
        methodology to be implemented for reconciling and resolving 2002 crop
        year data.


USDA/OIG-A/50099-12-KC                                                       Page 12
          Agency Response

          In its written response to the draft audit report, RMA conditionally
          concurred with the recommendation. RMA stated that it is in the process
          of analyzing the conditions cited and the 10 factors outlined in the draft
          report and plan to meet with FSA to determine the appropriate actions
          necessary to address each one. RMA expects to complete the review and
          will provide its response to the recommendation within the next 60 days.
          Also, FSA provided in its response that it has completed all activities
          related to the 2001 data reconciliation and records that could not be
          reconciled have been transferred to RMA. For 2002, some preliminary
          automated comparisons have been seen by FSA; however, no other 2002
          data reconciliation activities will begin by FSA until RMA has determined,
          with OGC guidance, what actions they can take. Once that is determined,
          FSA will work with RMA to determine the 2002 reconciliation process.

          OIG Position

          Based on the information contained in the two responses, we cannot
          accept management decision for this recommendation.             To reach
          management decision, RMA and FSA will need to provide detailed
          information specifying the actions taken or contemplated, as well the
          management control process to be used to ensure the planned corrective
          actions are effectively accomplished. We will also need to be informed of
          the timeframes for completing the specified actions.

          To the RMA Administrator:

                                     Include the issues identified by this report, as
  RECOMMENDATION NO. 3               well as any corrective actions taken or
                                     contemplated,        to       address        our
                                     recommendations in its next annual report to
          Congress.

          Agency Response

          In its written response to the draft audit report, RMA conditionally
          concurred with the recommendation. RMA stated that it plans to include a
          discussion on the Data Reconciliation Process in its next annual report to
          Congress.




USDA/OIG-A/50099-12-KC                                                      Page 13
            OIG Position

            We cannot accept management decision for this recommendation. To
            reach management decision, we will need to be advised how RMA will
            address the issues identified by this report, as well as any corrective
            actions taken or contemplated, to address our recommendations in its
            next annual report. In addition, we will also need to be provided the
            timeframe by which the next report will be provided to Congress.

                                     Obtain written legal opinions from OGC as to
  RECOMMENDATION NO. 4               whether (1) reinsured companies can be
                                     required to participate in the data
                                     reconciliation process and to clarify their role
        and responsibilities in resolving discrepancies identified and (2) the limited
        sampling plan approach being used to address and resolve the
        discrepancies identified during the 2001 reconciliation meets the
        requirements of ARPA (refer to factor no. 2.)

            Agency Response

            In its written response to the draft audit report, RMA concurred with the
            recommendation. RMA stated that it has requested and continues to work
            with OGC on obtaining the two legal opinions.

            OIG Position

            We cannot accept the management decision for this recommendation. To
            reach management decision, we will need to be advised that RMA has
            obtained the opinions from OGC and be provided RMA’s detailed plan of
            actions needed and appropriate timeframes to address the impact of the
            opinions on RMA’s operations.




USDA/OIG-A/50099-12-KC                                                       Page 14
EXHIBIT A – LETTER TO PRODUCERS REQUESTING VERIFICATION
OF DATA
       Example letter to producers requesting verification of data          (Par. 181)

The following is an example of the letter that County Offices shall use to notify producers of
discrepancies between RMA and FSA data.

Note: State and County Offices are not authorized to amend the language in this letter.

Dear Producer:

The Agricultural Risk Protection Act of 2000 requires that the Farm Service Agency (FSA) and
the Risk Management Agency (RMA) compare crop information submitted by producers to
ensure that both agencies’ records are correct. On October XX, 200X, the [crop year] crop
records from the 2 agencies were compared, and your data was determined to have 1 or more
differences.

The following is the data as provided by both agencies.

RMA data - Crop Year      Crop Crop Share Acreage        Verified Correct
     ________       ___________ ___________ ___________ _______________
                                                         Producer’s Initials

FSA data - Crop Year      Crop Crop Share Acreage        Verified Correct
      ________       ___________ ___________ ___________ ________________
                                                         Producer’s Initials

Other - Your ID number does not match - Please provide correct ID number _______

Please initial by the correct information and return this letter to the FSA County Office within 30
calendar days of receipt. Failure to return this letter within 30 calendar days may result in FSA
assigning the most restrictive data as correct or RMA referring your policy to your insurance
provider for further review. This may result in an overpayment of FSA benefits, which you will be
required to refund.

We appreciate your time and concern in this matter.

Sincerely,

John Smith
CED, Minnihaha County
5-25-02                               4-RM Amend. 8                                 Page 1




USDA/OIG-A/50099-12-KC                                                                   Page 15
EXHIBIT B – RMA AND FSA RESPONSES TO THE DRAFT REPORT




USDA/OIG-A/50099-12-KC                            Page 16
USDA/OIG-A/50099-12-KC   Page 17
USDA/OIG-A/50099-12-KC   Page 18
USDA/OIG-A/50099-12-KC   Page 19
                         ABBREVIATIONS

          ARPA       -       Agricultural Risk Protection Act

          CIS        -       Common Information System

          CLU        -       Common Land Unit

          CO         -       County Office

          FFAS       -       Farm and Foreign Agricultural Services

          FSA        -       Farm Service Agency

          FSRIA      -       Farm Security and Rural Investment Act

          GIS        -       Geographic Information System

          OCIO       -       Office of the Chief Information Officer

          OGC        -       Office of the General Counsel

          OMB        -       Office of Management and Budget

          RMA        -       Risk Management Agency

          SRA        -       Standard Reinsurance Agreement

          STO        -       State Office

          USDA       -       United States Department of Agriculture




USDA/OIG-A/50099-12-KC                                                 Page 20
